                                 DEPARTMENT OF THE ARMY
                              UNITED STATES ARMY CORPS OF ENGfNEERS
                                      TRANSATLANTIC DIVISION
                                       255 FORT COLLIER ROAD
                                    WfNCHESTER, VIRGINIA 22603
           REPLY TO
           ATTENTION OF


CETAD- IR                                                                     2 5 MAR 2013

MEMORANDUM FOR Special Inspector General for Afghanistan Reconstruction (SIGAR)
2530 Crystal Drive, Arlington, VA 22202-3940

SUBJECT: U.S. Army Corps of Engineers (USACE) Status Update on SIGAR Inspection
Report 13-1, Kunduz ANA Garrison: Army Corps of Engineers Released DynCorp of All
Contractual Obligations Despite Poor Performance and Structural Failures


1. The purpose of this correspondence is to provide a status update on actions taken by USACE
related to recommendations 1 and 3 in SIGAR Inspection Report 13- 1.

2. In response to recommendation 1, an updated listing and discussion of associated costs of the
corrections performed at the Kunduz ANA Garrison is provided at Enclosure 1.

3. Recommendation 3 requested that USACE "Explain in writing, either in response to this draft
report or in separate correspondence, why the settlement was determined to be fair and
reasonable." As mentioned in our previous response, USACE established a multidisciplinary
team to conduct a more thorough investigation. A summary of the team's findings is provided at
Enclosure 2.

4. My point of contact for these comments is




                                                 j
                                                    ~5.(d~
2 Encl                                              JOHNs. HURLEY
                                                    COL, EN
                                                                          a
                                                    Deputy Commander
USACE Status Update on Recommendations 1 and 3 in SIGAR Inspection Report 13-1,
Kunduz ANA Garrison: USACE Released DynCorp of All Contractual Obligations
Despite Poor Performance and Structural Failures

                                                                          ENCLOSURE 1


Recommendation 1: Justify the cost of further repairs and remediation of structural
failures at Camp Pamir funded with Afghan Security Forces Fund appropriations to
ensure that further construction is warranted, at reasonable cost to the U.S.
government.

While some information was provided in USACE’s response to the draft report and that
response was included in the final report, SIGAR indicated in the final report (October
2012) that more current justification of the costs and need for any further repairs is
warranted—which means more up-to-date cost estimate and analysis for any further
repairs than that included in the POM approved in December 2011. No additional
information regarding current justification of the costs and need for further repairs have
been received by SIGAR to date. Please advise of actions taken or being taken to
provide the requested information.

USACE Response: With respect to repairs and remediation of structural failures at
Camp Pamir, a number of decisions were made based upon economic considerations
as well as the fact that the Camp is now operational. Some repair items identified in the
POM were not executed because they were deemed unnecessary or uneconomical.
Further details are provided below.

An exact comparison of costs by the line items in the POM is not possible for a number
of reasons. The deficiencies have been addressed mainly through a latrine repairs
contract (W5J9JE-11-C-0182) and an ANA building repairs contract (W5J9JE-12-C-
0031). At the time of award of the ANA building repairs contract in December 2011, it
was not anticipated that there would be a requirement to provide updated costs by POM
line item. The ANA building repairs contract also included other major work such as an
electrical upgrade that was not related to the DynCorp deficiencies on the Kunduz ANA
Garrison contract. In addition, the pricing for ANA building repairs contract was
established by building and not by POM line item. As a result the cost for each line item
in the ANA building repair contract is not separable and is not directly comparable to
each line item in the POM. Nevertheless the total cost of the ANA Repair contract is
$1,872,105 and the cost of the latrines contract is $1,906,014. The combined total of
$3,778,119 therefore represents the upper limit of the range of repair and remediation
costs for Camp Pamir as it does include other work not included in the POM. The table
below provides the review team’s best estimate for the repairs but it should be noted
that some costs may not be reflected. The percentage completes were based on data
as of 21 Feb 2013.




                                         Page 1 of 3
USACE Status Update on Recommendations 1 and 3 in SIGAR Inspection Report 13-1,
Kunduz ANA Garrison: USACE Released DynCorp of All Contractual Obligations
Despite Poor Performance and Structural Failures




               Deficient Items                     Repair       %           Cost
                                                             Complete
 Latrines 612, 703, 909 & 10008                        Yes     74%       $1,906,014
 Power Plant                                           Yes     75%          $12,200
 Water Distribution Lines – No further leaks           No      N/A               $0
 have occurred
 Electrical Distribution Issues                        Yes      86%        $309,290
 Site Drainage System                                  Yes      75%             N/A
 DFAC #1 and #2                                        Yes      90%        $202,490
 Wastewater Treatment – work no longer                 No       0%               $0
 required
 Guard House, Guard Towers, Reception                  No       N/A                $0
 Bldg – repaired by DynCorp
 Medical Clinic                                        Yes      72%         $47,500
 CSB Maintenance Garage, 916                           Yes     100%         $18,000
 Fire Extinguishers                                    Yes      0%           $2,000
 DPW Building                                          Yes     100%        $108,000
 Benches, Lighting and Gathering Areas –               No       N/A              $0
 work no longer required
 Gas Station Buildings 209 & 1024                      Yes      95%          $2,000
 Total Repair Costs                                                      $2,607,494

Additional information on some specific line items is as follows:

Latrines: Two of the six latrine buildings (Bldg 406 and 603) are being demolished and
are not being replaced as it was determined that these will not impact the facility
because of additional capacity being provided under Phase 3.

Water Distribution Lines: It was decided not to replace the Water Distribution lines as
no further leaks had been identified and it would have been too disruptive to undertake
such work at an operational base.

Site Drainage: As part of the ANA Building Repair Contract (W5J9JE-12-C-0031),
USACE is placing a 1.5 meter concrete apron or sidewalk around each building with a
minimum slope of 0.5% away from the building. In addition, downspouts are being
extended to a length of three meters away from the building. These drainage
improvements were determined the best available method to prevent water from pooling
around the buildings. This in turn minimizes the chance of structural failures. Picture 1
on the following page shows sidewalk with slope being installed around building # 1016.




                                         Page 2 of 3
USACE Status Update on Recommendations 1 and 3 in SIGAR Inspection Report 13-1,
Kunduz ANA Garrison: USACE Released DynCorp of All Contractual Obligations
Despite Poor Performance and Structural Failures




Picture 1- Sloped sidewalks being installed to divert water away from foundation.




Power Plant: Correction of feeder cable phasing was not performed as a site
assessment indicated no grounding issues for the generator or transformer. The
generator is grounded to ring bus and the transformer frame is grounded. Existing
transformer is constructed with incoming 3-wire low voltage Delta configuration and
outgoing 4-wire medium voltage WYE configuration. To correct this issue, would have
required replacement of all existing transformers with incoming 4- wire terminations.




                                        Page 3 of 3
USACE Status Update, on Recommendations 1 and 3 in SIGAR Inspection Report 13-
1, Kunduz ANA Garrison: Army Corps of Engineers Released DynCorp of All
Contractual Obligations Despite Poor Performance and Structural Failures


                                                                      ENCLOSURE 2

Recommendation 3: "Explain in writing, either in response to this draft report or in
separate correspondence, why the settlement was determined to be fair and
reasonable."

    As mentioned in our previous response, USACE established a multidisciplinary team
to conduct a more thorough investigation into the negotiated contract modifications with
DynCorp International, LLC (DynCorp) for the design and construction of Afghan
National Army (ANA) facilities in Kunduz, Afghanistan. The team was composed of
professional engineers, program managers and contracting specialists. The team
reviewed the solicitation and award documents, correspondence with DynCorp, design
submittals, quality assurance and quality control reports, and documentation of the
contract modifications. The team also conducted interviews with Afghanistan Engineer
District-North (TAN) personnel involved in execution, administration and close out of the
contracts, including employees present during the final contract modification
negotiations with DynCorp. The team then identified management and contract
administration issues, analyzed technical challenges that affected the project, and
assessed the reasonableness of the overall settlement of the contract disputes.

   The review concluded that the final contract modification negotiated on October 6,
2011, and executed on December 9, 2011, was proper and reasonable although it was
not favorable to the Government.

   The review indicated that the ideal course of action for the Government, assuming
that DynCorp refused to perform any additional work at the Kunduz site, would have
been to:

   •   Determine the Government costs incurred by using a follow-on Operation and
       Maintenance (O&M) contractor to correct deficient DynCorp construction;
   •   Determine the actual cost of USACE supervision and administrative costs
       incurred due to late delivery by DynCorp of the contracted work;
   •   Estimate the costs avoided by DynCorp in not completing contract work;
   •   Determine any excusable non-compensable delays for which DynCorp may have
       been entitled to an extension in performance period;
   •   Assess liquidated damages for late performance;
   •   Negotiate a bilateral supplemental agreement on more favorable terms; and
   •   Issue a performance rating to DynCorp commensurate with the quality of design
       and construction performed.

    However, the review acknowledges the complexity of factors and business judgment
that led the TAN personnel to reach what was deemed to be a fair and reasonable
settlement. Though the process followed was inconsistent with USACE policy, there
was sufficient information for TAN leadership to believe that the final negotiated

                                         Page 1 of 2
USACE Status Update, on Recommendations 1 and 3 in SIGAR Inspection Report 13-
1, Kunduz ANA Garrison: Army Corps of Engineers Released DynCorp of All
Contractual Obligations Despite Poor Performance and Structural Failures

modification was the best course of action for the Kunduz project, and that the
alternative of the disputes process would place the government at greater risk and cost.

The HQUSACE team believes that the TAN leadership’s assessment for the
modification included the following issues as presented by the TAN negotiation team:

    • An assumption that the soils issue was in fact a differing site condition. This is
       evidenced by subsequent changes in technical criteria associated with sites
       having similar soil conditions.
    • The difficulty of oversight of construction projects due to the rotation of deployed
       personnel, variations in documented contract files, and variations in
       enforcement of the contract requirements.
    • The ANA had occupied the Kunduz facilities while construction was ongoing and
       the facilities were being damaged by the ANA personnel.
    • The Government’s ability to successfully resource and defend anticipated
       protracted litigation of the contract disputes.
    • A negotiated bilateral supplemental agreement was generally in the best interest
       of the Government.

   As a result of this experience, the Transatlantic Division (TAD) directed the
establishment of a dedicated team of multidisciplinary professionals to review and
resolve claims and terminations arising from the contingency operations as well as
complex Requests for Equitable Adjustment. In January 2013, USACE Middle East
District, located in the U.S., created a reach back cell to track, analyze, and resolve
these contract disputes/disagreements. This 20-person cell has the skill set,
experience, and dedicated time to comprehensively manage these issues. This frees
our contingency districts in Afghanistan to focus on the execution of the remaining
construction projects by the end of calendar year 2014.

    Moreover, TAD has decided that bilateral supplemental agreements that include
numerous unrelated scope changes and/or multiple contracts will not be executed
without review at the Division level. Further, proposed negotiation of contract disputes
in Afghanistan, above a certain dollar threshold, should receive review at the MSC level.




                                        Page 2 of 2
